U.S. Department of Justice
Office of the Solicitor General

The Solicitor General

Washington, D.C. 20530

January 15, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Charles Michael Hall v. United States,
No. 20-5375 (Capital Case)
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 12,
2020, and placed on the Court’s docket on August 17, 2020. The government’s response is
currently due, on two extensions, on January 19, 2021.
We respectfully request, under Rule 30.4 of the Rules of this Court, a further extension to
and including February 5, 2021, within which to file the government’s response. This extension
is necessary because the attorneys with principal responsibility for final preparation of the
government’s response have been heavily engaged with the press of other matters before the Court.
Counsel for petitioner does not object to this further extension of time.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General

cc:

See Attached Service List

20-5375
HALL, CHARLES MICHAEL
USA

FREDERICK ALLWYN DUCHARDT, JR.
PO BOX 246
TRIMBLE, MO 64492

